No. 20-3500

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
RONALD BRANDON,
Petitioner-Appellant,
v.

JAY FORSHEY, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Aug 31, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: WHITE, Circuit Judge.
Ronald Brandon, a pro se Ohio prisoner, appeals the district court’s judgment denying his
28 U.S.C. § 2254 petition for a writ of habeas corpus. The court construes his notice of appeal as
an application for a certificate of appealability (“COA”). See 28 U.S.C. § 2253(c)(1)(A); Fed. R.
App. P. 22(b)(2). Brandon also moves to proceed in forma pauperis.
A jury convicted Brandon of one count of cocaine trafficking, three counts of drug
possession (cocaine, methamphetamine, and delta-9-tetrahydrocannabinol), and one count of
engaging in a pattern of corrupt activity, and the trial court also convicted him of having a weapon
under disability. The trial court sentenced him to fifteen years of imprisonment. The Ohio Court
of Appeals affirmed, State v. Brandon, No. CT2017-0081, 2018 WL 4382069 (Ohio Ct. App.
Sept. 7, 2018), and Brandon did not seek review by the Ohio Supreme Court. He filed an Ohio
Rule of Appellate Procedure 26(B) motion to reopen his appeal, which the Ohio Court of Appeals
denied, and the Ohio Supreme Court declined jurisdiction.
Brandon then filed this § 2254 petition raising these five claims: (1) his appellate counsel
was ineffective for failing to raise meritorious issues; (2) his trial counsel was ineffective forfaiting
to advance an affirmative defense; (3) the indictment was insufficient; (4) the trial court violated .
the Confrontation Clause by permitting evidence from a non-testifying co-defendant, without

No. 20-3500
-2-

which the State did not prove the pattern-of-corrupt-activity charge; and (5) the trial court violated
/''his rights to due process and equal protection by using his juvenile record to support the imposition
of consecutive sentences . A magistrate judge recommended denying Brandon’s first claim on the
merits and the others as procedurally defaulted. Brandon v. Buchanan, No. 2:19-CV-2487, 2020
\

WL 362962 (S.D. Ohio Jan. 22, 2020). The district court adopted that recommendation over
Brandon’s objections, denied his petition, and declined to issue a COA. Brandon v. Buchanan,
No. 2:19-CV-2487, 2020 WL 1242901 (S.D. Ohio Mar. 16, 2020).
A court may issue a COA “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “That standard is met when ‘reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been resolved
in a different manner,”’ Welch v. United States, 136 S. Ct. 1257, 1263 (2016) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)), or when “jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). When the district court has denied the petition on procedural grounds, the petitioner must
show that reasonable jurists “would find it debatable whether the petition states a valid claim of
the denial of a constitutional right and .. . would find it debatable whether the district court was
correct in its procedural ruling.” Slack, 529 U.S. at 484.
To obtain federal habeas relief, a petitioner must have first exhausted his state-court
remedies by properly presenting his claim through “one complete round of the State’s established
appellate review process.” O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999); see 28 U.S.C.
§ 2254(b)(1)(A). When a petitioner has failed to do so, and when state law now prevents him from
doing so, his habeas claim is procedurally defaulted. O’Sullivan, 526 U.S. at 848. A federal
habeas court will not review a procedurally defaulted claim unless the petitioner can show either
cause for the default and actual prejudice from the alleged constitutional violation, or that failure
to consider the claim would create a fundamental miscarriage of justice. Coleman v. Thompson,
501 U.S. 722, 750(1991).

No. 20-3500
-3-

Brandon did not raise claims two through five in his direct appeal, and, in any event, did
not seek Ohio Supreme Court review of his direct appeal. Because Ohio principles of res judicata
now prevent him from returning to state court to raise these claims, see Lundgren v. Mitchell, 440
F.3d 754, 765 n.2 (6th Cir. 2006), the district court held that he had procedurally defaulted them.
In Brandon’s first claim, however, which he did litigate through the Ohio courts in his Rule 26(B)
motion, he alleged that his attorney was ineffective for not raising these claims in his direct appeal,
and appellate counsel’s ineffectiveness in failing to raise a meritorious issue can be the cause to
excuse procedural default. See Edwards v. Carpenter, 529 U.S. 446, 451 (2000). That raises the
question, then, whether Brandon’s claims two through five are meritorious. Yet no reasonable
jurist could debate the district court’s determination that they are not.
The district court held that Brandon had abandoned his second claim by not presenting
arguments about it in his objections to the magistrate judge’s report and recommendation.
Brandon, 2020 WL 1242901, at *2. Whether or not counsel was ineffective for failing to raise the
substantive claim on direct appeal, no reasonable jurist could debate the district court's decision
that Brandon abandoned the claim. See Keeling v. Warden, Lebanon Corr. Inst., 673 F.3d 452,
458 (6th Cir. 2012).
Brandon next claimed that the indictment was insufficient because it did not state that the
methamphetamine charge was a third-degree felony, and that the trial court constructively
amended the indictment by including the third-degree language in the jury instructions. See, e.g.,
Geboy v. Brigano, 489 F.3d 752, 763 n.7 (6th Cir. 2007) (explaining constructive amendment).
The district court held that Brandon had not shown that, under state law, the degree of the offense
and the corresponding specific statutory provision must be included in the indictment. The district
court also held that the indictment satisfied due process because it contained all the elements of
the offense—including the amount of methamphetamine, which determined the offense degree
under Ohio law. And because the indictment contained that element, the district court held that
the jury instructions did not amount to a constructive amendment. Thus, because the district court
determined that the indictment was adequate, the court held that Brandon’s attorney was not

No. 20-3500
-4-

ineffective for failing to raise these arguments on appeal. Brandon, 2020 WL 1242901, at *3-4.
The magistrate judge also noted that, in Ohio, an inadequate-indictment claim may not be raised
for the first time on direct appeal, that Brandon’s trial counsel did not object to the indictment, and
thus that appellate counsel was not ineffective for failing to raise an unpreserved claim on appeal.
Brandon, 2020 WL 362962, at *6. Given that the indictment stated the elements of the offense,
gave Brandon adequate notice of the charge, and protected him from double jeopardy^ see
Valentine v. Konteh, 395 F.3d 626, 631 (6th Cir. 2005), and because Ohio law does not require
more detail, Brandon has not made a substantial showing that his counsel was ineffective for not
raising these arguments on appeal.
In his fourth claim, Brandon alleged that the trial court permitted evidence from a non­
testifying co-defendant in violation of the Confrontation Clause and that, without that evidence,
the State did not prove the pattern-of-corrupt-activity charge. The allegedly offending evidence
was text messages between Brandon and another individual showing that the drug transactions
were for more than $1000. The district court held that, because his trial counsel did not object to
the evidence, his appellate counsel was not ineffective for failing to raise the unpreserved
argument. Brandon, 2020 WL 1242901, at *5. Even so, the district court also held that the text
messages did not contravene the Confrontation Clause because they were not testimonial. Id.; see
also United States v. Boyd, 640 F.3d 657, 665 (6th Cir. 2011) (holding that “statements to a
companion” were nontestimonial because “a reasonable person in [the speaker’s] position would
not have anticipated the use of the statements in a criminal proceeding”). Because the claim was
unpreserved and unmeritorious, Brandon has not made a substantial showing that his appellate
attorney was ineffective for not raising that argument on appeal.
In his final claim, Brandon asserted that the trial court violated his rights to due process
and equal protection by using his juvenile record to support the imposition of consecutive
sentences. Brandon cited State v. Hand, 73 N.E.3d 448, 459 (Ohio 2016), which held that a prior
juvenile conviction cannot be used to enhance “either the degree of or the sentence for a subsequent
offense committed as an adult.” He later cited Alleyne v. United States, 570 U.S. 99, 117 (2013),

No. 20-3500
-5 -

which held that any fact that increases a statutory minimum sentence must be found by a jury
beyond a reasonable doubt. The district court rejected these arguments because Brandon’s
sentence was not enhanced and his statutory minimum was not increased on account of his juvenile
record; rather, the trial court merely chose “within the range of available sentences” for his offenses
based on several factors, including his juvenile record. Brandon, 2020 WL 1242901, at *5.
Because Brandon did not make a substantial showing that the trial court’s sentence was improper,
no reasonable jurist could debate the district court’s determination that counsel was not ineffective
for failing to raise that claim on appeal.
In sum, Brandon has not made a substantial showing that his appellate attorney was
ineffective for not raising on direct appeal his second, third, fourth, and fifth habeas claims. Thus,
no reasonable jurist could debate the district court’s denial of those claims as procedurally
defaulted.
Accordingly, Brandon’s COA application is DENIED, and his motion to proceed in forma
pauperis is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 1 of 10 PAGEID #: 786

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION AT COLUMBUS
RONALD BRANDON,
Petitioner,

Case No. 2:19-cv-2487

- vs -

District Judge Edmund A. Sargus, Jr.
Magistrate Judge Michael R. Merz

TIM BUCHANAN, Warden,
Noble Correctional Institution,
Respondent.

OPINION AND ORDER

This habeas corpus case is before the Court on Petitioner’s Objections (ECF No. 15) to the
Magistrate Judge’s recommendation that the case be dismissed with prejudice (Report and
Recommendations (“Report”, ECF No. 14). As required by Fed.R.Civ.P. 72(b), the District Judge
has reviewed de novo those portions of the Report to which specific objection has been made and
rules on those objections as follows.

Litigation History

In March 2017 Petitioner was indicted by the Muskingum County grand jury on charges
of trafficking in drugs (cocaine)(Count One:); possession of drugs (cocaine)(Count Two);
possession of drugs (methamphetamine)(Count Three); possession of drugs (delta-9tetrahydrocannabinol)(Count Four); engaging in a pattern of corrupt activity (Count Five); and
1

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 2 of 10 PAGEID #: 787

having a weapon under disability (Count Six)(State Court Record, ECF No. 10, PagelD 49-50). A
jury convicted Brandon on the first five counts and the trial judge found him guilty on the weapons
charge after a bench trial (State Court Record, ECF No. 10, PagelD 53-54). He was sentenced to
conciment terms of thirty months and eleven months for the drug charges, ten years consecutive
for the pattern of corrupt activity charge, and a further thirty months for the weapons charge, for
an aggregate prison term of fifteen years. Id. at PagelD 56.
Brandon appealed to the Ohio Fifth District Court ofAppeals raising as his sole assignment
of error that the record did not support consecutive sentences. The Fifth District affirmed. State
v. Brandon, 2018-0hio-3701 (Ohio App. 5th Dist. Sept. 7, 2018). It then also denied Brandon's
motion to file a supplemental briefpro se (State Court Record, ECF No. 10, PagelD 108). Brandon
did not appeal to the Supreme Court of Ohio.
On October 17,2018, Brandon filed an application undo- Ohio R. App. P. 26(B) to reopen
his direct appeal to assert as ineffective assistance of appellate counsel the omission of the
following assignments of error:
1. The[] appellant received ineffective assistance of trial counsel
pursuant to the failure to advance the affirmative defense of
consent, as to Count One of the indictment.
2. The indictment failed to charge a third-degree possession of
drags for Count Three.
3. Appellant was denied due process of law, which is inalienable
under the Fifth Amendment, when he was convicted of engaging
in a pattern of corrupt activity without proof of every element
beyond a reasonable, [s/c].
4. Use of appellant’s juvenile record to support the imposition of
consecutive sentences denial due process and equal protection
of the law, thereby constituting a reversible constitutional error.
(State Court Record, ECF No. 10, PagelD 112-17). The Fifth District denied the application, id.
2

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 3 of 10 PAGEID #: 788

at PagelD 127-28, and the Supreme Court of Ohio declined review. Id. at PagelD 158.
Brandon then filed the instant habeas corpus petition pleading the following grounds for
relief:
Ground One: A criminal defendant is denied effective assistance
of appellate counsel where counsel fails to raise “dead-bang”
winners that would have strongly changed the outcome of appeal.
Ground Two: A criminal defendant receives ineffective assistance
of trial counsel where a failure to advance an affirmative defense
substantially prejudices him to conviction without sufficient
evidence.
Ground Three: An indictment is sufficient in charging an offense
if it recites the language of die relevant criminal statute, but fails to
aggravate an offense if it lacks the degree of die offense and specific
numerical designation.
Ground Four: When evidence gained from a non-testifying co­
defendant is used against the accused, any conviction underscored
by this evidence must be reversed pursuant to the Confrontation
Clause of the 6th U.S.C.A.
Ground Five: Use of a criminal defendant’s juvenile record to
support imposition of consecutive sentences denies due process and
equal protection of the law.
(Petition, ECF No. 1, PagelD 3-6.)

Analysis

The Report concluded Grounds Two, Three, Four, and Five could have been raised on
direct appeal and were procedurally defaulted because they had not been raised in that manner
(Report, ECF No. 14, PagelD 768-78.) Because the omitted assignments of error were without
merit, the Report concluded that the Petition should also be dismissed on the merits.
3

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 4 of 10 PAGEID #: 789

Brandon raises three objections which are discussed in turn1.

Insufficiency of Count Three of the Indictment
Brandon objects that his “conviction on Count three of the indictment did not constitute a
third-degree felony, because key ingredients were missing and charge was constructively
amended.” (Objections, ECF No. 15, PagelD 781. He asserts the “state appellate court never
adjudicated the merits of this claim, and only summarily-denied ineffective assistance of appellate
counsel claim..Id.
Brandon is correct that this claim was not decided on die merits on direct appeal — because
it was not assigned as error in that appeal. Brandon, 2018-0hio-3701 (Ohio App. 5* Dist. Sept.
7, 2018); see also Merit Brief of Appellant (State Court Record, ECF No. 10, PagelD 68). The
Report is correct that this is a claim which could have been adjudicated on the face of the appellate
record. Failure to raise it in that way therefore constitutes a procedural default which prevents

j£s

merits consideration in habeas unless Brandon can show excusing cause and prejudice.
Brandon claims that omission of this as an assignment of error constituted ineffective
assistance of appellate counsel and he raised that claim in the appropriate way under Ohio law, to
wit, by filing an application to reopen under Ohio R. App. P. 26(B). Although the Fifth District’s
rejection of this claim was in summary form, it was a rejection on the merits and cited the relevant
federal standard for ineffective assistance of appellate counsel under Strickland v. Washington,
466 U.S. 668 (1984)(Judgment Entry, State Court Record, ECF No. 10, PagelD 127-28.)
As the Report points out, this Court is bound under Antiterrorism and Effective Death
Penalty Act of 1996 (Pub. L. No 104-132,110 Stat. 1214)(the "AEDPA") to defer to a state court

Brandon does not argue his claim that a consent defense should have been raised.

4

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 5 of 10 PAGEID #: 790

merits decision of a federal constitutional question unless that decision is objectively unreasonable
(Report, ECF No. 14, PagelD 771). The Report found the Fifth District’s decision was completely
reasonable because the omitted assignment of error was entirely without merit. Id. at PagelD 77476.
Brandon objects relying on United States v. Cook, 84 U.S. 168 (1872), and United States
v. Cruikshank, 92 U.S. 542 (1875), for the proposition that “every ingredient [element] which
composes the offense” must be in the charging instrument (Objections, ECF No. 15, PagelD 781).
Here he says
Ohio law provides that the enhancement factors of the degree of the
offence and specific statutory subsection must be listed in the text
or body of die indictment, otherwise thee [sic] defendant has only
been charged with the least degree ofthe offence. State v. Fairbanks
(2007), 172 OApp3d 766, 1124. With these ingredients not being
listed (Doc. #: 10, PAGEID#: 120-22), Brandon was only charged
with a fifth-degree violation of O.R.C. §2925.11 in Count Three.
Id.
As the Report notes, Count Three of the Indictment reads:
THE JURORS OF THE GRAND JURY of the State of Ohio, within
and for die body of the County aforesaid, on their oaths, in the name
and by the authority of the State of Ohio, do find and present that on
or about 05/26/2016, in die County of Muskingum, Ohio, Ronald J.
Brandon did knowingly obtain, possess, or use Methamphetamine,
a Schedule II controlled substance, in ah amount greater than the
bulk amount but less than five (5) times the bulk amount; in
violation of Ohio Revised Code, Tide 29, Section 2925.11(A) and
against the peace and dignity of the State of Ohio.
(Report, ECF No. 14, PagelD 775, citing State Court Record, ECF No. 10, PagelD 49.) The Indictment
plainly charges Brandon with possession of greater than the bulk amount of methamphetamine but less
than five times bulk and also alleges methamphetamine is a Schedule II drug. Ohio Revised Code §
provides that a person who possesses a Schedule II controlled substance in that amount is guilty of a
third-degree felony, but the face of the Indictment does not say that. The Magistrate Judge thus
5

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 6 of 10 PAGEID #: 791

understood Brandon’s claim to be
that the failure to state of the face of Count Three that it is for a thirddegree felony and the failure to specify the Revised Code section
that makes it so (Ohio Revised Code § 2925.11(C)(1)(b)) renders
the Indictment void and appellate counsel should have raised that as
an assignment of error.
Id. at PagelD 775. Brandon’s Objections confirm that this is in fact the claim he is making,
Brandon’s claim is wrong even as a matter of Ohio law. The case on which he relies. State
v. Franklin, 172 Ohio App. 3d 766 (12th Dist. 2007), held that the State may not amend an
indictment on the morning of trial to add an element which elevates the degree of the offense from
a misdemeanor to a felony. Doing so was held to violate the grand jury clause of the Ohio
Constitution. The case does not hold that either the degree of the offense or the statutory citation
must appear on the fact of the indictment, even as a matter of Ohio law.
There is no federal constitutional right to be indicted by a grand jury for a state felony
offense. The Grand Jury Clause of the Fifth Amendment is not applicable to the States. Hurtado
v. California, 110 U.S. 516 (1884); Branzburg v. Hayes,408 U.S. 665, 687-88 n. 25 (1972);
Gerstein v. Pugh, 420 U.S. 103 (1975); Williams v. Haviland, 467 F.3d 527 (6th Cir.
2006){Apprendi does not change this result). “[T]here is no constitutional right in a state
prosecution to a grand jury indictment with particular specificity.” Id. at 534, citing Rose v.
Mitchell, 443 U.S. 545,557, n. 7 (1979).
Russell v. United States, 369 U.S. 749 (1962), holds the sufficiency of an indictment in
federal court is to be measured by the following criteria:
These criteria are, first, whether the indictment "contains the
elements of die offense intended to be charged, 'and sufficiently
apprises the defendant of what he must be prepared to meet,"' and,
secondly, "'in case any other proceedings are taken against him for
a similar offense whether the record shows with accuracy to what
extent he may plead a former acquittal or conviction."’
6

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 7 of 10 PAGEID #: 792

369 U.S. at 763-64. While the right to grand jury indictment has not been extended to the States,
these criteria are applicable as a matter of due process. Valentine v. Konteh, 395 F.3d 626, 631
(6* Cir. 2005), citing De Vonish v. Keane, 19 F.3d 107,108 (2nd Cir. 1994); Fawcett v. Bablitch,
962 F.2d 617,618 (7th Cir. 1992); see also Isaac v. Grider, 211 F.3d 1269,2000 WL 571959, at
*4 (6th Cir. 2000); Parks v. Hargett, 1999 U.S. App. LEXIS 5133, 1999 WL 157431, at *3 (10th

r

Cir. 1999).
Neither the degree ofthe offense charged nor the citation to the statute that makes it a crime
or prescribes the punishment is an “element” of the crime. As a matter of due process, every
element of a crime must be proven beyond a reasonable doubt. Jackson v. Virginia, 443 U.S. 307
(1979). In Apprendi v. New Jersey, 530 U.S. 466 (2000), the Supreme Court held that “element”
includes every fact which must be proved to increase the maximum punishment to which a
defendant is liable. In Blakely v. Washington, 542 U.S. 296 (2004), the Court held any fact which
increases the sentence beyond a legislatively-mandated guideline, even if within a statutory
maximum for the offense, must be pled as an element in the indictment and proved to the jury
beyond a reasonable doubt. To the extent that Cook and Cruikshank stand for this proposition —
that the charging instrument must contain all elements of the offense — they continue to be good
law. But nothing in this line of cases suggests that the degree of the offense (as opposed to the
facts that elevate a case to a particular degree) or the statutory citation must appear on the face of
the indictment.
Brandon’s claim that assigning a degree to the possession of methamphetamine in the jury
instructions created a constructive amendment of the indictment (Objections, ECF No. 15, PagelD
781) is also without merit The element required to be proved to elevate Count Three from a fifthdegree felony to a third-degree felony was present on the face of the Indictment, to wit, that

7

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 8 of 10 PAGEID #: 793

Brandon possessed more than the bulk amount but less than five times bulk.
Because Count Three was sufficient to charge the crime of which Brandon was convicted,
it was not ineffective assistance of appellate counsel to fail to claim otherwise. Ground Three of
file Petition is without merit. For that reason, Ground One is also without merit.

Insufficiency of the Evidence to Prove Engaging in a Pattern of Corrupt Activity

In Ground Four Brandon claims that evidence from a non-testifying co-defendant should
have been excluded under the Confrontation Clause and without this evidence, there was not
enough evidence to convict him of engaging in a pattern of corrupt activity.
This claim, although available on direct appeal, was not raised there. Brandon asserted in
his 26(B) Application that it was ineffective assistance of appellate counsel to fail to do so. The
Report concluded that an assignment of error to that effect would not have been successful because
there had been no contemporaneous objection to the asserted Confrontation Clause violation
(Report, ECF No. 14, PagelD 776-77).
Brandon objects first of all that the proper time to raise a Confrontation Clause objection
is in a motion for judgment of acquittal rather than when the evidence is offered (Objections, ECF
No. 15, PagelD 782, citing Glasser v. United States, 315 U.S. 60 (1942). Glasser says nothing of
die kind and did not involve a Confrontation Clause question. There is no exception in the Ohio
contemporaneous objection rule to allow a defense attorney to withhold a Confrontation Clause
objection until a Rule 29 motion; by that time the jury would have heard the offending evidence,
defeating the purpose of the contemporaneous objection rule.
Brandon’s Confrontation Clause objection, as the Court understands it, is that the jury

8

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 9 of 10 PAGEID #: 794

could not have made a finding of engaging in a pattern of corrupt activity without evidence from
text messages he exchanged with April Jones showing drug purchases in excess of $ 1,000. As the
Report found, because of a lack of contemporaneous objection, this claim would not have been
heard on direct appeal and it was thus not ineffective assistance of appellate counsel to fail to raise
this as an assignment of error (Report, ECF No. 14, PagelD 777).
But even a contemporaneous objection on Confrontation Clause grounds would have been
without merit. Although April Jones did not testify, the State did not rely on any out-of-court
testimonial statement by her. Instead, the State proved the value ofdrugs Brandon sold Jones
exceeded $1,000 by the content of text messages between the two ofthem about the prices ofdrugs
Jones was buying (See Transcript,StateggmtR»5ord,ECF No. 10-1, PagelD 589-90). Although
these are out-of-court statements offered for the truth of Ihe content, they are not testimonial in
nature2 and would have been admissible as admissions against penal interest by Jones.

Use of Brandon's Juvenile Offenses Record to Support Imposition of Consecutive Sentences

Brandon’s fourth omitted assignment of error was that appellate counsel did not plead that
reliance by the sentencing judge on juvenile conviction to justify consecutive sentences was
unconstitutional. The Report found that there was no authority for this proposition (Report, ECF
No. 14, PagelD 777-78.)

2

That is, these are not recorded statements by Jones attempting to implicate Brandon. Rather, they are part of the
drug transactions between the two of them. The Confrontation Clause bars “admission of testimonial statements of
a witness who did not appear at trial unless he was unavailable to testify, and the defendant has a prior opportunity for
cross-examination...” Crawford v. Washington, 541 U.S. 36, 53-54 (2004)(emphasis supplied). In Ohio v. Clark,
576 U.S.__ , 135 S. CL 2173, 192 L.Ed. 2d 306 (2015), the Supreme Court held a statement is testimonial if its
primary purpose is to assist law enforcement

9

Case: 2:19-cv-02487-EAS-MRM Doc #: 16 Filed: 03/16/20 Page: 10 of 10 PAG El D #: 795

Brandon objects because this reliance increases the sentencing range, it runs afoul of the
holding in Alleyne v. United States, 570 U.S. 99 (2013), that any fact that makes a defendant
eligible for the mandatory minimum sentence for an offense is an “element” which must be
submitted to the jury (Objections, ECF No. 15, PagelD 783). On the contrary, the existence of
Brandon’ s juvenile record did not make him eligible for consecutives sentences; it was his multiple
convictions that did that. The trial judge merely considered the juvenile record as a factor causing
him to choose within the range of available sentences. Imposition of consecutive sentences for
multiple offenses, based on facts found by the court rather than the jury, does not violate
constitutional right to jury trial, since the jury historically played no role in determining
consecutive or concurrent sentences and state had sovereign authority to administer its penal
system. Oregon v. Ice, 555 U.S. 160 (2009).

Conclusion

Based on the foregoing analysis, the Court OVERRULES Petitioner’s Objections and
ADOPTS the Magistrate Judge’s Report and Recommendations. The Petition herein will be
dismissed with prejudice. The Clerk will enter judgment to that effect. Because reasonable jurists
would not disagree with this conclusion, Petitioner is denied a certificate of appealability and the
Court certifies to the Sixth Circuit that any appeal would be objectively frivolous and should not
be permitted to proceed in forma pauperis.
IWv
February__ , 2020,
/\

EdmupcDL.!Sargus, Jr.
Unitec^tatesJ)istrict Judge

10

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 hied: 01/22/20 Page: 1 of 15 PAG El D #: 765

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION AT COLUMBUS
RONALD BRANDON,
Petitioner,

Case No. 2:19-cv-2487
District Judge Edmund A. Sargus, Jr.
Magistrate Judge Michael R. Merz

- vs -

TIM BUCHANAN, Warden,
Noble Correctional Institution,

Respondent.

REPORT AND RECOMMENDATIONS

This is a habeas corpus action brought pro se by Petitioner Ronald Brandon to obtain relief
from his convictions in the Muskingum County Court of Common Pleas on charges of engaging
in a pattern of corrupt activity, possession of and trafficking in drugs, and having weapons while
under disability.
Upon filing of the Petition (ECF No. 1), Magistrate Judge Chelsey Vascura ordered
Respondent to file an answer and the state court record (ECF No. 4). Respondent has done so
(State Court Record, ECF No. 10; Return, ECF No. 11). Petitioner has now filed a Reply (ECF
No. 12), rendering the case ripe for decision.
The Magistrate Judge reference in the case was recently transferred to the undersigned to
help balance the Magistrate Judge workload in the District (Transfer Order, ECF No. 13). The
case remains assigned to District Judge Sargus for final decision.

1

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 2 of 15 PAGEID #: 766

Litigation History

In March 2017 the Muskingum County grand jury indicted Brandon on six counts: Count
One: trafficking in drugs (cocaine), a fifth-degree felony in violation of Ohio Revised Code §
2925.03(A)(1); Count Two, possession of drugs (cocaine), a fifth-degree felony in violation of
Ohio Revised Code § 2925.11(A); Count Three, possession of drugs (methamphetamine), a thirddegree felony in violation of Ohio Revised Code § 2925.11(A); Count Four, possession of drugs
(delta-9-tetrahydrocannabinol), a fifth-degree felony in violation of Ohio Revised Code §
2925.11 (A); Count Five, engaging in a pattern of corrupt activity, a first-degree felony in violation
of Ohio Revised Code § 2923.32(A)(1); and Count Six, having a weapon under disability, a thirddegree felony in violation of Ohio Revised Code § 2923.13(A)(3) (State Court Record, ECF No.
10, PagelD 49-50).
Brandon tried the first five counts to a jury, which convicted him on all five. The trial
judge found him guilty on Count Six, the weapons charge, after a bench trial (State Court Record,
ECF No. 10, PagelD 53-54). He was sentenced to concurrent terms of thirty months and eleven
months for the drug charges, ten years consecutive for the pattern of corrupt activity charge, and a
further thirty months for the weapons charge, for an aggregate prison term of fifteen years. Id. at
PagelD 56.
Brandon appealed to the Ohio Fifth District Court of Appeals raising as his sole assignment
of error that the record did not support consecutive sentences. The Fifth District affirmed. State
v. Brandon, 2018-0hio-3701 (Ohio App. 5th Dist. Sept. 7, 2018). It then also denied Brandon’s
motion to file a supplemental briefpro se (State Court Record, ECF No. 10, PagelD 108). Brandon
did not appeal to the Supreme Court of Ohio.

2

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 3 of 15 PAGEID #: 767

On October 17, 2018, Brandon filed an application to reopen his direct appeal to assert as
ineffective assistance of appellate counsel the omission of the following assignments of error:
1. The[] appellant received ineffective assistance of trial counsel
pursuant to the failure to advance the affirmative defense of
consent, as to Count One of the indictment.
2. The indictment failed to charge a third-degree possession of
drugs for Count Three.
3. Appellant was denied due process of law, which is inalienable
under the Fifth Amendment, when he was convicted of engaging
in a pattern of corrupt activity without proof of every element
beyond a reasonable, [sic].
4. Use of appellant’s juvenile record to support the imposition of
---- consecutive sentences denied due process and equal protection
of the law, thereby constituting a reversible constitutional error.

(State Court Record, ECF No. 10, PagelD 112-17). The Fifth District denied the application, id.
at PagelD 127-28, and the Supreme Court of Ohio declined review. Id. at PagelD 158.
Brandon then filed the instant habeas corpus petition pleading the following grounds for
relief:
Ground One: A criminal defendant is denied effective assistance
of appellate counsel where counsel fails to raise “dead-bang”
winners that would have strongly changed the outcome of appeal.
Ground Two: A criminal defendant receives ineffective assistance
of trial counsel where a failure to advance an affirmative defense
substantially prejudices him to conviction without sufficient
evidence.
Ground Three: An indictment is sufficient in charging an offense
if it recites the language of the relevant criminal statute, but fails to
aggravate an offense if it lacks the degree of the offense and specific
numerical designation.
Ground Four: When evidence gained from a non-testifying co­
defendant is used against the accused, any conviction underscored

3

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 4 of 15 PAGEID #: 768

by this evidence must be reversed pursuant to the Confrontation
Clause of the 6th U.S.C.A.
Ground Five: Use of a criminal defendant’s juvenile record to
support imposition of consecutive sentences denies due process and
equal protection of the law.
(Petition, ECF No. 1, PagelD 3-6.)

Analysis

Petitioner’s Grounds Two, Three, Four, and Five were capable of adjudication on the
record before the Fifth District on direct appeal, but none of them were raised in that forum. Based
on these procedural facts, which Brandon does not contradict, all four of these claims are subject
to procedural default.
The procedural default doctrine in habeas corpus is described by the Supreme Court as
follows:
In all cases in which a state prisoner has defaulted his federal claims
in state court pursuant to an adequate and independent state
procedural rule, federal habeas review of the claims is barred unless
the prisoner can demonstrate cause of the default and actual
prejudice as a result of the alleged violation of federal law; or
demonstrate that failure to consider the claims will result in a
fundamental miscarriage of justice.

Coleman v. Thompson, 501 U.S. 722, 750 (1991); see also Simpson v. Jones, 238 F.3d 399, 406
(6th Cir. 2000). That is, a petitioner may not raise on federal habeas a federal constitutional rights
claim he could not raise in state court because of procedural default. Wainwright v. Sykes, 433 U.S.
72 (1977); Engle v. Isaac, 456 U.S. 107, 110 (1982). “Absent cause and prejudice, ‘a federal
habeas petitioner who fails to comply with a State’s rules of procedure waives his right to federal

4

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 5 of 15 PAGEID #: 769

habeas corpus review.’” Boyle v. Million, 201 F.3d 711, 716 (6th Cir. 2000), quoting Gravley v.
Mills, 87 F.3d 779, 784-85 (6th Cir. 1996); accord: Murray v. Carrier, All U.S. 478, 485 (1986);
Engle, 456 U.S. at 110; Wainwright, 433 U.S. at 87.
[A] federal court may not review federal claims that were
procedurally defaulted in state court—that is, claims that the state
court denied based on an adequate and independent state procedural
rule. E.g., Beard v. Kindler, 558 U.S. 53, 55, 130 S.Ct. 612, 175
L.Ed.2d 417 (2009). This is an important “corollary” to the
exhaustion requirement. Dretke v. Haley, 541 U.S. 386, 392, 124
S.Ct. 1847,158 L.Ed. d 659 (2004). “Just as in those cases in which
a state prisoner fails to exhaust state remedies, a habeas petitioner
who has failed to meet the State’s procedural requirements for
presenting his federal claims has deprived the state courts of an
opportunity to address” the merits of “those claims in the first
—instance.” Coleman [v. Thompson], 501 U.S. [722,] 731-732, 111
S.Ct. 2546, 115 L.Ed.2d 640 [(1991)]. The procedural default
doctrine thus advances the same comity, finality, and federalism
interests advanced by the exhaustion doctrine. See McCleskey v.
Zant, 499 U.S. 467, 493, 111 S.Ct. 1454, 113 L.Ed.2d 517 (1991).
Davila v. Davis, 137 S. Ct. 2058, 2064 (2017).
The Sixth Circuit Court of Appeals requires a four-part analysis (“Maupin test”) when the
State alleges a habeas claim is precluded by procedural default. Barton v. Warden, S. Ohio Corr.
Facility, 786 F.3d 450, 464 (6th Cir. 2015), Guilmette v. Howes, 624 F.3d 286, 290 (6th Cir. 2010)
(en banc)\ Eley v. Bagley, 604 F.3d 958,965 (6th Cir. 2010); Reynolds v. Berry, 146 F.3d 345, 34748 (6th Cir. 1998), citing Maupin v. Smith, 785 F.2d 135, 138 (6th Cir. 1986).
First the court must determine that there is a state procedural rule
that is applicable to the petitioner's claim and that the petitioner
failed to comply with the rule.
Second, the court must decide whether the state courts actually
enforced the state procedural sanction, citing County Court of Ulster
County v. Allen, 442 U.S. 140, 149, 99 S.Ct. 2213, 60 L.Ed.2d 111
(1979).

5

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 6 of 15 PAG El D #: 770

Third, the court must decide whether the state procedural forfeiture
is an “adequate and independent” state ground on which the state
can rely to foreclose review of a federal constitutional claim.
Once the court determines that a state procedural ruKTwas not
complied with and that the rule was an adequate and independent
state ground, then the petitioner must demonstrate under Sykes thar
there was “cause” for him to not follow the procedural rule and that
fe-was-actually-prejudiced-by-the-aileged-eonstitutionalerror. Maupin, 785 F.2d at 138.

A habeas petitioner can overcome a procedural default by showing

cause for the default and prejudice from the asserted error. Atkins v. Holloway, 792 F.3d 654, 657
(6th Cir. 2015).
When an issue that could have been decided on direct appeal is omitted from that
proceeding, Ohio’s criminal res judicata doctrine prevents Ohio courts from later consideration of
that issue. That doctrine, enunciated in State v. Perry, 10 Ohio St. 2d 175 (1967), has repeatedly
been held to be “an adequate and independent state ground barring federal habeas review.” Durr
v. Mitchell, 487 F.3d 423,432 (6th Cir. 2007) (collecting cases). The Ohio courts have consistently
enforced the rule. See, e.g., State v. Cole, 2 Ohio St. 3d 112 (1982); State v. Ishmail, Cl Ohio St.
2d 16(1981).
One way to show excusing cause and prejudice for a procedural default is to shpw-thatJhe
default was caused by the constitutionally ineffective assistance of counsel. Attorney error
amounting to ineffective assistance of counsel can constitute cause to excuse a procedural default.
Murray v. Carrier, 477 U.S. 478, 488 (1985); Howard v. Bouchard, 405 F.3d 459, 478 (6th Cir.
2005); Lucas v. O’Dea, 179 F.3d 412, 418 (6th Cir. 1999); Gravley v. Mills, 87 F.3d 779, 785 (6th
Cir. 1996). However, Murray also holds that the exhaustion doctrine “generally requires that a
claim of ineffective assistance of counsel be presented to the state courts as an independent claim
before it may be used to establish cause for a procedural default in federal habeas proceedings.”

6

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 7 of 15 PAGEID #: 771

477 U.S. at 489.
In his effort to show excusing cause and prejudice regarding Grounds Two, Three, Four,
and Five, Brandon claims those grounds were omitted on direct appeal because he received
ineffective assistance of appellate counsel in that proceeding. Such a claim cannot be presented
in federal court unless it has been previously exhausted in the state courts. Edwards v. Carpenter,
529 U.S. 446 (2000). Brandon did exhaust his ineffective assistance of appellate counsel claim in
exactly the way required by Ohio law, to wit, by submitting an application for reopening the direct
appeal under Ohio R.App.P. 26(B), Ohio’s principal vehicle for adjudicating ineffective assistance
of appellate counsel claims.
A state court decision on the merits of an ineffective assistance of appellate counsel claim
is treated for habeas corpus purposes in the same way as any other state court decision on federal
constitutional questions later presented in federal court. That is, such a decision is entitled to
deference unless it is contrary to or any objectively unreasonable application of clearly established
Supreme Court precedent. 28 U.S.C. § 2254(d)(1); Harrington v. Richter, 562 U.S. 86, 131 S. Ct.
770, 785 (2011); Brown v. Payton, 544 U.S. 133, 140 (2005); Bell v. Cone, 535 U.S. 685, 693-94
(2002); Williams (Terry) v. Taylor, 529 U.S. 362, 379 (2000). Deference is also due under 28
U.S.C. § 2254(d)(2) unless the state court decision was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceedings.
Brandon included in his 26(B) Application the four omitted assignments of error quoted
above in the Litigation History section. The Fifth District decided the 26(B) Application on the
merits1 (State Court Record, ECF No. 10, PagelD 127-28). It applied the correct federal standard

1 Brandon concedes the Rule 26(B) Application was decided on the merits, but asserts he was entitled to findings of
fact and conclusions of law “[b]ecause App.R. 26(B) proceedings are the equivalent of post-conviction relief
proceedings before a trial court[.]” (Reply, ECF No. 12, PagelD 758.) That is incorrect. Post-conviction relief
proceedings are governed by statute, Ohio Revised Code § 2953.21 -.23, and it is the legislature that prescribed findings

7

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 8 of 15 PAGEID #: 772

for ineffective assistance of appellate counsel derived from Strickland v. Washington, 466 U.S.
668 (1984), which the Supreme Court has expressly held applies to ineffective assistance of
appellate counsel claims. Smith v. Robbins, 528 U.S. 259, 285 (2000); Burger v. Kemp, 483 U.S.
776 (1987). Although the Fifth District’s decision was summary, it was clearly on the merits and
not on some procedural issue. A state court decision can constitute an “adjudication on the merits”
entitled to deference under 28 U. S.C. § 2254(d)(1) even if the state court does not explicitly refer
to the federal claim or to relevant federal case law. In Harrington v. Richter, 562 U.S. 86 (2011),
the Supreme Court held:
By its terms § 2254(d) bars relitigation of any claim “adjudicated on
-the merits” in state court, subject only to the exceptions in §§
2254(d)(1) and (d)(2). There is no text in the statute requiring a
statement of reasons. The statute refers only to a “decision,” which
resulted from an “adjudication.” As every Court of Appeals to
consider the issue has recognized, determining whether a state
court’s decision resulted from an unreasonable legal or factual
conclusion does not require that there be an opinion from the state
court explaining the state court's reasoning. See Chadwick v.
Janecka, 312 F.3d 597, 605-606 (CA3 2002); Wright v. Secretary
for Dept, of Corrections, 278 F.3d 1245, 1253-1254 (CA11 2002);
Sellan v. Kuhlman, 261 F.3d 303, 311-312 (CA2 2001); Bell v.
Jarvis, 236 F.3d 149, 158-162 (CA4 2000) (en banc); Harris v.
Stovall, 212 F.3d 940, 943, n. 1 (CA6 2000); Aycox v. Lytle, 196
F.3d 1174, 1177-1178 (CA10 1999); James v. Bowersox, 187 F.3d
866, 869 (CA8 1999). And as this Court has observed, a state court
need not cite or even be aware of our cases under § 2254(d). Early
v. Packer, 537 U.S. 3, 8, 123 S. Ct. 362, 154 L. Ed. 2d 263 (2002)
(per curiam). Where a state court's decision is unaccompanied by an
explanation, the habeas petitioner's burden still must be met by
showing there was no reasonable basis for the state court to deny
relief. This is so whether or not the state coin! reveals which of the
elements in a multipart claim it found insufficient, for § 2254(d)
applies when a "claim," not a component of one, has been
adjudicated.

and conclusions in those proceedings. Ohio R.App.P. 26(B) is entirely the product of the Supreme Court of Ohio’s
rulemaking process under the Modem Courts Amendment. See State v. Murnahan, 63 Ohio St. 3d 60 (1992),
superseded in part by Ohio R.App. 26(B) as recognized in State v. Davis, 119 Ohio St. 3d 422, 2008-0hio-4608, lfl|
13-16.

8

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 9 of 15 PAGEID #: 773

Id. at 98. “This Court now holds and reconfirms that § 2254(d) does not require a state court to
give reasons before its decisions can be deemed to have been ‘adjudicated on the merits.’” Id. at
100. Petitioner’s burden, then, is to show the Fifth District’s decision on his ineffective assistance
of appellate counsel claim isjioi

to deference under 2 8~U-rST]X-§-2254(-d)(-f)'oir(2)y

-----To“evaluate a claim of ineffective assistance of appellate counsel, then, the court must \
assess the strength of the claim that counsel failed to raise. Henness v. Bagley, 644 F.3d 308, 317

\

(6th Cir. 2011), citing Wilson v. Parker, 515 F.3d 682, 707 (6th Cir. 2008). Counsel's failure to raise
\

an issue on appeal amounts to ineffective assistance only if a reasonable probability exists that
\

inclusion of the issue would have changed the result of the appeal. Id., citing Wilson. The attorney
need not advance every argument, regardless of merit, urged by the appellant. “Experienced
advocates since time beyond memory have emphasized the importance of winnowing out weaker
arguments on appeal and focusing on one central issue if possible, or at most on a few key issues.”
Jones v. Barnes, 463 U.S. 745, 751-752 (1983).

Effective appellate advocacy is rarely

characterized by presenting every non-frivolous argument which can be made. Smith v. Murray,
All U.S. 527 (1986); Joshua v. DeWitt, 341 F.3d 430, 441 (6th Cir. 2003).
Brandpn-aSsertshiTomitted'assignments were ‘ ‘dead-bang^wrnnerfs]:’ ’"“(Reply, ECF No.
12, PagelD 758). The strength of Brandon’s omitted assignments of error will be evaluated in
turn.

Ineffective assistance of trial counsel for failure to raise a defense of consent

Brandon first argued to the Fifth District that he received ineffective assistance of trial
counsel when his trial attorney failed to pursue an affirmative defense of consent. He asserted that
9

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 10 of 15 PAG El D #: 774

the only person to whom he directly sold drugs consented to the sale, he could have used that
consent as an affirmative defense. (State Court Record, ECF No. 10, PagelD 112-13, citing
Sorrells v. United States, 287 U.S. 435 (1932); State v. Mehozonek, 8 Ohio App. 3d 271 (8th Dist.
1983)).
In Mehozonek a manufacturer staged five fake thefts from its plant to test the loyalty of its
security guards who were indicted for allowing the thefts to occur. The convictions were reversed
because the property owner planned the crime. 8 Ohio App. 3d at 271 -72. In essence, the employer
consented to the taking of its property, and lack of consent of the owner has always been an element
of theft. Id. at 274. Sorrells is an entrapment case; the Supreme Court held there was sufficient
evidence of entrapment to submit that affirmative defense to the jury. 287 U.S. at 441.
Brandon does not argue that he presented any sufficient evidence of entrapment and he
also presents no case authority holding that consent is a defense in a drug trafficking case. Such
cases regularly involve willing buyers and sellers and it is unlawful both to sell and to buy
controlled substances outside the prescription system. It cannot be ineffective assistance of trial
counsel to fail to present a defense that the courts have never accepted. A fortiori it cannot be
ineffective assistance of appellate counsel to fail to raise such an omission as ineffective assistance
of trial counsel.

Ineffective Assistance of Trial Counsel to Fail to Raise a Claim that the Indictment Failed to
Charge Third-Degree Possession of Drugs in Count Three

Brandon’s argument is that the Indictment at Count Three, failed to declare a felony level
[and] it didn’t include the numerical designation for a violation of the third degree.” He asserted
10

Case: 2:19-cv-02487-EAS-MRM Doc#: 14 Filed: 01/22/20 Page: 11 of 15 PAGEID #: 775

these omissions effectively deprive the trial court of subject matter jurisdiction. (State Court
Record, ECF No. 10, PagelD 114, citing State v. Cimpritz, 158 Ohio St. 490 (1953)).
Count Three of the Indictment reads:
THE JURORS OF THE GRAND JURY of the State of Ohio, within
and for the body of the County aforesaid, on their oaths, in the name
and by the authority of the State of Ohio, do find and present that on
or about 05/26/2016, in the County of Muskingum, Ohio, Ronald J.
Brandon did knowingly obtain, possess, or use Methamphetamine,
a Schedule II controlled substance, in an amount greater than the
bulk amount but less than five (5) times the bulk amount; in
violation of Ohio Revised Code, Title 29, Section 2925.11(A) and
against the peace and dignity of the State of Ohio.

(State Court Record, ECF No. 10, PagelD 49.) Ohio Revised Code § 2925.11(A) provides “No
person shall knowingly obtain, possess, or use a controlled substance.” Ohio Revised Code §
2925.11(B) provides exceptions. Ohio Revised Code § 2925.11(C) is the penalty provision and
provides that if a person violates Ohio Revised Code § 2925.11(A) by possessing a Schedule I or
II controlled substance (with exceptions not applicable here), the person is guilty of aggravated
possession of drugs, a felony of the third degree, if the amount is greater than the defined bulk
amount of the drug but less than five times bulk. Ohio Revised Code § 2925.11(C)(1)(b). Count
Three of the Indictment plainly advised Brandon that he was charged with possession of great than
a bulk amount of a Schedule II controlled substance, Methamphetamine, on a particular date. As
the Magistrate Judge understands Brandon’s argument, it is that the failure to state of the face of
Count Three that it is for a third-degree felony and the failure to specify the Revised Code section
that makes it so (Ohio Revised Code § 2925.11(C)(1)(b)) renders the Indictment void and appellate
counsel should have raised that as an assignment of error.

11

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 12 of 15 PAGEID #: 776

A judgment of conviction based on an indictment which does not charge an offense is,
under Ohio law, void for lack ofjurisdiction of the subject matter and may be successfully attacked
either on direct appeal to a reviewing court or by a collateral proceeding. State v. Cimpritz, 185
Ohio St. 490, 490-91 (1953), paragraph six of the syllabus. However, in Midling v. Perrini, 14
Ohio St. 2d 106 (1968), the Supreme Court of Ohio overruled Cimpritz and held that failure to
object that an indictment does not state an offense must be raised in the trial court and cannot be
raised for the first time on appeal because it does not deprive the trial court of subject matter
jurisdiction. See, e.g., State v. Butcher, No. 2019-P-0005, 2019-Ohio-3728, ][ 26 (Ohio App. 11th
Dist. Sept. 16, 2019).. Without attempting to determine if omitting the degree of any offense or
the numerical designation of the appropriate penalty section constitutes omission of an “element”
under Ohio law, the claim could not have been raised by appellate counsel because it was not
raised in the trial court. Failure to raise on direct appeal a claim that is not cognizable on appeal
is plainly not ineffective assistance of appellate counsel.

Conviction for Engaging in a Pattern of Corrupt Activity Without Proof of Every Element

Brandon’s third omitted assignment of error was that he was convicted of engaging in a
pattern of corrupt activity without proof of every element beyond a reasonable doubt (State Court
Record, ECF No. 10, PagelD 114-16). In his argument to the Fifth District, he somehow conflated
the burden of proof argument with a denial of confrontation rights with April Jones. It appears
that he is claiming that without evidence from text messages he exchanged with April Jones, the
State did not prove the value of the drugs he sold her exceeded one thousand dollars (See Ohio
Revised Code § 2923.3 l(I)(2)(c)). In his Reply in this Court, he argues “there is a nexus between

12

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 13 of 15 PAGEID #: 777

confrontation and sufficiency . .

(ECF No. 12, PagelD 760-61), but he does not state what that

nexus is.
The jury returned a finding that that value of the contraband possessed, sold, or purchased
by Brandon exceeded one thousand dollars (Trial Tr., ECF No. 10-1, PagelD 709). Counsel made
no objections to the jury instructions as given. Id. at PagelD 705. The instruction on pattern of
corrupt activity occurs at PagelD 693-94 and requires the finding of two predicate acts including
trafficking in cocaine, a felony of the first degree. Thus the jury was required to make—and did
make—the finding Brandon says was necessary. If his claim is that they could not make that
finding based on the evidence before them because of a violation of the Confrontation Clause, that
claim is forfeited by lack of any contemporaneous objection. In other words, evidence admitted
in arguable violation of the Confrontation Clause still “counts” toward the sufficiency of the
evidence and the argument is lost if not made at the time of admission of the evidence.
Because there was no contemporaneous objection on Confrontation Clause grounds, it was
not ineffective assistance of appellate counsel to fail to raise a Confrontation Clause claim on direct
appeal, much less an insufficiency of the evidence claim which would have depended on success
of the Confrontation Clause claim.

Use of Brandon’s Juvenile Offenses Record to Support Imposition of Consecutive Sentences
In his fourth omitted assignment of error, Brandon claimed his constitutional rights to due
process and equal protection were violated when the trial judge relied in part on his record of
juvenile offenses to justify imposing consecutive sentences ((State Court Record, ECF No. 10,
PagelD 116-17, citing State v. Hand, 149 Ohio St. 3d 94, 2016-0hio-5504).
Brandon fundamentally misreads Hand. In that case the Supreme Court of Ohio held that

13

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 14 of 15 PAGEID #: 778

Ohio Revised Code § 2901.08(A) violates both the Ohio and Federal Constitutions “because it is
fundamentally unfair to treat a juvenile adjudication as a previous conviction that enhances either
the degree of or the sentence for a subsequent offense committed as an adult—A juvenile
adjudication cannot be used to increase a sentence beyond a statutory maximum or mandatory
minimum.” 2016-0hio-5504, at 37. That is simply not what happened here. The trial judge did
consider Brandon’s record of juvenile offenses for the purpose of deciding what sentence to
impose within the range of sentences authorized by the jury verdicts. He did not rely on the
juvenile record to enhance the degree of any of the offense_s„ofxonvictipn.
Neither tKif77a«dTourt~nor-any^otEercourtto the Magistrate Judge’s knowledge has held
that a juvenile offense record cannot be considered in choosing an appropriate sentence from

\
\

among the sentences authorized by the jury verdicts. Brandon cited no such case law to the Fifth

j

District and he adds nothing to his Hand citation in his Reply (ECT No. 12, PagelD 761-62)./
_

j

Because an assignment of error based on Hand would have been unsuccessful, it cannot have been
ineffective assistance of appellate counsel to fail to plead such an assignment.

Conclusion

As the foregoing analysis demonstrates, the Fifth District’s decision on Brandon’s Rule
26(B) Application was completely reasonable because it rejected four assignments of error that
would not have been successful if raised. The Fifth District’s Rule 26(B) decision is therefore
entitled to deference under 28 U.S.C. § 2254(d)(1). Brandon has therefore failed to show cause
and prejudice to excuse his procedural default in presenting Grounds for Relief Two, Three, Four,
and Five to the state courts. By the same reasoning, his Ground One is without merit.

14

i

Case: 2:19-cv-02487-EAS-MRM Doc #: 14 Filed: 01/22/20 Page: 15 of 15 PAGEID #: 779

The Magistrate Judge therefore respectfully recommends that the Petition herein be
dismissed with prejudice. Because reasonable jurists would not disagree with this conclusion, it
is also recommended that Petitioner be denied a certificate of appealability and that the Court
certify to the Sixth Circuit that any appeal would be objectively frivolous and should not be
permitted to proceed in forma pauperis.

January 22, 2020.
s/ MicfiaeCR. Merz
United States Magistrate Judge

NOTICE REGARDING OBJECTIONS

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Because this document is being served by mail, three days are added under
Fed.R.Civ.P. 6. Such objections shall specify the portions of the Report objected to and shall be
accompanied by a memorandum of law in support of the objections. A party may respond to
another party’s objections within fourteen days after being served with a copy thereof. Failure to
make objections in accordance with this procedure may forfeit rights on appeal.

15

